                                    i         NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL

 .                                               OFFICE OF INVESTIGATIONS

  o                                         CLOSEOUT MEMORANDUM

Case Number: I08020013
                                                                            11          Page 1 of 1



      This investigation was opened pursuant to information received about the theft of IVSF property
      which included laptops and other electronic devices. A review was initiated to look at IVSF
      policies and procedures related to: I) Property Management and 2) Personally Identifiable
      Information (PII) and how information is reported to the NSF PI1 Response Team (PIRT).

      During the course of conducting our review, changes were made to the policies and procedures
      regarding Property Management, PII, and the PIRT which addressed our concerns. We therefore
      terminated our review.

      Accordingly, this matter is closed.
